          Office of Inspector General




March 30, 2006

NICHOLAS F. BARRANCA
VICE PRESIDENT, PRODUCT DEVELOPMENT

SUBJECT:       Audit Report – Hybrid Services
               (Report Number MS-AR-06-001)

This report presents the results of our self-initiated, nationwide audit of hybrid services
offered by the Product Management group (Project Number 05WG013MS000). We
determined whether adequate controls were in place to track revenue related to hybrid
services revenue sharing agreements during fiscal years 2004 and 2005.

The Product Management group does not have adequate controls in place to validate
the amount of production or postage revenue submitted by hybrid services partners.
Without adequate internal controls, the Product Management group cannot determine
whether the U.S. Postal Service received the appropriate amount of revenue from
hybrid services partners.

We recommended that Postal Service management identify and coordinate with a
Postal Service group outside of the Product Management group, such as the Marketing
Technology and Channel Management group, or a third party contractor, to generate
test transactions for each of the hybrid services. We also recommended that Postal
Service management determine the feasibility of each of the hybrid services partners
establishing a mailing permit strictly for hybrid services mailings.

Management agreed with our recommendations and has initiatives planned addressing
the issues in this report. Management did not concur with our finding. We remain
concerned that the Product Management group cannot determine whether the Postal
Service received the appropriate amount of revenue from the hybrid services partners.
Management’s comments and our evaluation of these comments are included in the
report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert Mitchell,
director, Marketing, or me at (703) 248-2300.

   E-Signed by Mary Demory
ERIFY authenticity with ApproveI




Mary W. Demory
Deputy Assistant Inspector General
 for Headquarters Operations

Attachments

cc: Anita J. Bizzotto
    Richard H. Arvonio
    Steven R. Phelps
Hybrid Services                                      MS-AR-06-001



                              TABLE OF CONTENTS

 Executive Summary                                        i

 Part I

 Introduction                                            1

     Background                                          1
     Objective, Scope, and Methodology                   2
     Prior Audit Coverage                                3

 Part II

 Audit Results                                           4

     Analysis of Controls Over the Hybrid Services       4
         Production Revenue                              5
         Postage Revenue                                 5
     Recommendations                                     6
     Management’s Comments                               7
     Evaluation of Management’s Comments                 7

 Appendix. Management’s Comments                         8
Hybrid Services                                                                                MS-AR-06-001



                                    EXECUTIVE SUMMARY
    Introduction                 This report presents the results of our self-initiated audit of
                                 the U.S. Postal Service Product Management1 group’s
                                 hybrid services program. We determined whether adequate
                                 controls were in place to track revenue related to hybrid
                                 services revenue sharing agreements during fiscal
                                 years 2004 and 2005.

    Results in Brief             Controls in place to track revenue related to hybrid services
                                 revenue sharing agreements are not adequate. Specifically,
                                 the Product Management group cannot validate the amount
                                 of production or postage revenue submitted by hybrid
                                 services partners.

                                 Without adequate controls in place to ensure the accuracy
                                 of production and postage revenue, the Product
                                 Management group is unable to determine whether the
                                 Postal Service is receiving the appropriate amount of
                                 revenue from hybrid services partners.

    Summary of                   We recommended Postal Service management identify and
    Recommendations              coordinate with a Postal Service group outside of the
                                 Product Management group, such as the Marketing
                                 Technology and Channel Management group, or a
                                 third party contractor, to generate test transactions for each
                                 of the hybrid services. We also recommended that Postal
                                 Service management determine the feasibility of each of the
                                 hybrid services partners establishing a mailing permit strictly
                                 for hybrid services mailings.

    Summary of                   Postal Service management agreed with all four of our
    Management’s                 recommendations. The Product Management group will
    Comments                     work to implement the four recommendations made in the
                                 report and they will also work with the hybrid services
                                 partners to establish an audit process verifying production
                                 and postage revenue. However, management did not
                                 concur with our finding that the Product Management group
                                 does not have adequate controls to validate the production
                                 or postage revenue submitted by hybrid services partners.
                                 Management’s comments, in their entirety, are included in
                                 the appendix of this report.

1
 The Product Management group was the parent group of the Alternative Mail Solutions (AMS) group. The AMS
group has been dissolved and is now referred to by its parent group’s name, Product Management.



                                                      i
Hybrid Services                                                           MS-AR-06-001




 Overall Evaluation of   Management’s comments are responsive to the
 Management’s            recommendations and actions planned should correct the
 Comments                issues identified in our report.

                         Regarding management’s disagreement with our finding,
                         the Product Management group stated the revenue is being
                         adequately accounted for through the use of the Business
                         Development Measurement Database (BDMD). We noted
                         on page 5 of our report that problems with the BDMD
                         software have been corrected, and payments from the
                         hybrid services partners can now be compared to the
                         BDMD. All that remains is to reduce the risk that hybrid
                         services partners might not report all revenue to which the
                         Postal Service is entitled. Implementing our
                         recommendations should reduce this risk.




                                         ii
Hybrid Services                                                                                          MS-AR-06-001



                                           INTRODUCTION
    Background                        The U.S. Postal Service Product Management group
                                      currently manages three hybrid services revenue sharing
                                      programs: NetPost CardStore (CardStore), NetPost
                                      Premium Postcard (Premium Postcard) and NetPost Mailing
                                      Online (Mailing Online). The combined production2 and
                                      postage3 revenue the Postal Service received from the
                                      hybrid services partners was $6.45 and $7.77 million in
                                      fiscal years (FY) 2004 and 2005, respectively.

                                      These hybrid mail services combine electronically
                                      generated mail with hard copy mail for delivery by the Postal
                                      Service. Customers access the hybrid services through the
                                      Postal Service website, where they can link to the partner
                                      companies for any of the three services chosen. For each
                                      hybrid service, the Postal Service has revenue sharing
                                      agreements with partner companies that provide the hard
                                      copy production of customers’ orders and share an agreed-
                                      upon percentage of the revenue from the customers’ orders
                                      with the Postal Service. The Postal Service receives all
                                      postage revenue from these transactions.

                                      Using CardStore, a printing and mailing service, customers
                                      can electronically create a greeting card that is mailed to
                                      another party or back to themselves for personalization.
                                      Effective in September 2004, the Postal Service expanded
                                      its original contract with its partner, Touchpoint
                                      Incorporated, to include gift cards for a variety of retailers.

                                      With Premium Postcard, another printing and mailing
                                      service, customers can produce customized full-gloss
                                      postcards online and have the cards printed and mailed by
                                      the Postal Service. AmazingMail Incorporated entered into
                                      an agreement with the Postal Service in March 2001 to
                                      establish Premium Postcard as a revenue sharing program.

                                      Mailing Online allows customers to create postcards, flyers,
                                      letters, and booklets on their computers and have them
                                      professionally printed and mailed the next day. Rich




2
    Production revenue is revenue received from hybrid services partners from their sales of products.
3
    Postage revenue is revenue received from hybrid services partners from their purchase of indicia.

                                                        1
Hybrid Services                                                                                     MS-AR-06-001




                                   Graphics Corporation (RGC) entered into an agreement
                                   with the Postal Service in September 2003 to establish
                                   Mailing Online as a revenue sharing program.

                                   By entering into a revenue sharing agreement with RGC,
                                   the Postal Service reduced its operating costs, reducing the
                                   Product Management group’s hybrid services budget
                                   from $855,000 in FY 2004 to $50,000 in FY 2005. The
                                   $50,000 in FY 2005 was for database maintenance and
                                   upgrades.

    Objective, Scope, and          Our objective was to determine whether adequate controls
    Methodology                    were in place to track revenue related to hybrid services
                                   revenue sharing agreements for the period FYs 2004
                                   through 2005.

                                   To accomplish our objective, we interviewed Postal Service
                                   officials in the Product Management group, Business
                                   Evaluations, Segment Advertising, Law Department, and
                                   Supply Management. We reviewed contracts, agreements,
                                   and scorecards associated with hybrid services. We also
                                   reviewed applicable sections of the Postal Service’s
                                   Strategic Transformation Plan.

                                   We reviewed data on postage, the general ledger, and the
                                   Business Development Measurement Database (BDMD).4
                                   We also reviewed copies of electronic funds transfers and
                                   checks provided by Product Management officials for
                                   FY 2004 through April 2005. We conducted limited testing
                                   to assess the reliability of the total production revenue data
                                   from the BDMD and found the data sufficiently reliable to
                                   meet our objective. However, we did not assess the
                                   reliability of other data obtained from Postal Service
                                   databases; therefore, we base no conclusions or
                                   recommendations solely on those data.

                                   We conducted this audit from May 2005 through
                                   March 2006 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We reviewed management controls over
                                   the hybrid services as they related to the audit objective.
                                   Specifically, we reviewed policies and procedures and held
4
  The BDMD is a Postal Service database used by the Product Management group to collect revenue
information on production and postage, based on transaction-level data provided by the business partners.

                                                    2
Hybrid Services                                                            MS-AR-06-001



                        discussions with program officials to determine whether
                        controls were adequate to track revenue related to hybrid
                        services revenue sharing agreements. We discussed our
                        observations and conclusions with management officials
                        and included their comments where appropriate.

 Prior Audit Coverage   In our audit report, Financial Performance of eCommerce
                        Initiatives-Net Post Services Program (Report Number
                        OE-AR-03-007 dated September 30, 2003), we reported
                        that the program fell short of the original financial
                        projections approved by the Board of Governors (BOG), and
                        the Postal Service had used an inadequate basis for
                        revising revenue projections. We also reported that the
                        Postal Service had not prepared and submitted to the BOG
                        a modification to the original Decision Analysis Report, and
                        the Investment Highlights reports to the BOG did not include
                        key performance information.

                        We recommended that management take immediate action
                        to obtain updated market research data, incorporate these
                        data into revised projections for the NetPost Services
                        program, and assess the impact the Postal Service’s
                        partnership with other hybrid mail companies could have on
                        the NetPost Services program. We recommended
                        management assess the program’s viability to determine
                        whether continued investment is in the best interest of the
                        Postal Service, and if so, prepare and submit to the BOG a
                        Decision Analysis Report Modification Request. We also
                        recommended that they identify key performance measures
                        for the NetPost Services program and require these
                        measures to be reported to the BOG if the program is
                        continued.

                        Subsequent to fieldwork, but before we issued our final
                        report, the Postal Service converted the Mailing Online
                        component of the hybrid services program into a revenue
                        sharing agreement with RGC.

                        Management disagreed, in whole or in part, with all five of
                        the recommendations, stating that since it was making
                        changes to the Mailing Online component of the hybrid
                        services program, the recommendations were no longer
                        valid.




                                     3
Hybrid Services                                                                                  MS-AR-06-001



                                     AUDIT RESULTS
                                 The Product Management group does not have adequate
                                 controls to track revenue related to hybrid services revenue
                                 sharing agreements. Specifically, the group cannot validate
                                 the production or postage revenue submitted by hybrid
                                 services partners.

    Analysis of Controls         The Product Management group does not have adequate
    Over the Hybrid              controls to validate the production or postage revenue
    Services                     submitted by hybrid services partners. This is due to the
                                 Product Management group’s belief that the partners would
                                 not jeopardize their business relationship with the Postal
                                 Service. Without adequate internal controls, the Product
                                 Management group cannot determine whether the Postal
                                 Service received the appropriate amount of revenue from
                                 the hybrid services partners.

                                 The Strategic Transformation Plan states:

                                          . . .Through Enterprise Risk Management, the Postal
                                          Service will enhance its system of internal controls to
                                          evaluate and control risk and enhance business
                                          performance. It will act to eliminate risk revealed by
                                          internal control reviews. Managers will be held
                                          accountable for the ongoing application and
                                          assessment of internal controls in their areas of
                                          responsibility. . . .5

                                 We believe adhering to this guidance will provide the
                                 Product Management group with adequate control over
                                 revenue.

                                 The Postal Service has basic controls in place over hybrid
                                 services. For example, the manager of the Alternative Mail
                                 Solutions group (now referred to as the Product
                                 Management group) said the Postal Inspection Service
                                 conducted site surveys at the partners’ business locations to
                                 check building and server security. In addition, the manager
                                 stated that when one of his team members uses the hybrid
                                 services for personal use, the transaction is tracked to verify
                                 that the Postal Service received the appropriate revenue
                                 share and postage from that transaction, and that the
                                 Product Management group makes unannounced site visits

5
 United States Postal Service Strategic Transformation Plan, September 2005, Enhance Corporate
Financial Responsibility, page 40.

                                                  4
Hybrid Services                                                        MS-AR-06-001



                      to the partners’ business locations to monitor their
                      processes. However, these controls are not adequate to
                      validate production and postage revenue reported by the
                      business partners.

 Production Revenue   The Postal Service does not have an adequate method of
                      ensuring the accuracy of production revenue provided under
                      agreements with its hybrid services partners. Although the
                      Product Management group reported year-end production
                      revenue of approximately $528,000 for FY 2004 and
                      $890,000 for FY 2005, the group had no method of ensuring
                      that the Postal Service was provided with the correct
                      amount of revenue from the hybrid services partners.

                      We could not validate the accuracy of the hybrid services
                      partners’ payments to the Postal Service for production
                      revenue because the total dollar amount of the electronic
                      funds transfers and checks received by the Postal Service
                      did not always match the information in the BDMD. Errors
                      in the BDMD software caused the BDMD to report
                      inaccurate production revenue. During our review, the
                      Product Management group corrected the problems with the
                      BDMD software so they can compare payments from the
                      hybrid services partners to the BDMD.

                      Although the Product Management group corrected
                      problems with the BDMD software, the corrections will not
                      ensure the accuracy of the partners’ production revenue
                      data used to populate the BDMD.

                      Coordinating with Postal Service groups outside the Product
                      Management group to generate test transactions for each of
                      the hybrid services would improve controls over the
                      accuracy of revenue reported by hybrid services partners.
                      Test transactions could provide the Product Management
                      group with data on the ordering and receipt of goods, as
                      well as information on print quality and the timeliness of
                      mailings.

 Postage Revenue      We also could not validate the accuracy of the postage
                      revenue data in the BDMD because the hybrid services
                      partners do not have separate permits for hybrid services
                      mailings. Specifically, hybrid services partners combine
                      hybrid services mail with non-hybrid services mail, which
                      does not allow separate tracking.



                                   5
Hybrid Services                                                                                    MS-AR-06-001



                                 Validating the postage revenue6 reported by the hybrid
                                 services partners would require contacting business mail
                                 entry units for permit information on the partners’ mailings.
                                 However, we learned from the Product Management group
                                 that hybrid services partners do not have separate permits
                                 that they use only for hybrid services mailings.

                                 The Product Management group reported postage revenue
                                 of $5.92 million for FY 2004 and $6.88 million for FY 2005.
                                 Without knowing whether the production revenue is
                                 accurate, and because the hybrid services partners do not
                                 have permits that they use only for hybrid services mailings,
                                 the Product Management group has no method of validating
                                 the accuracy of postage revenue received from the hybrid
                                 services partners.

                                 If each hybrid service partner established a mailing permit
                                 used only for hybrid service mailings, this would allow the
                                 Product Management group to validate the postage revenue
                                 reported by the partner.

    Recommendations              We recommend the vice president, Product Development,
                                 direct the manager, Product Management, to:

                                      1. Identify and coordinate with a Postal Service group
                                         outside of the Product Management group, such as
                                         the Marketing Technology and Channel Management
                                         group, or a third party contractor, to generate test
                                         transactions for each of the hybrid services.

                                      2. Coordinate with the Postal Service Office of Statistics
                                         to determine the number of test transactions
                                         necessary to give the Product Management group
                                         sufficient data on the ordering and receipt of goods
                                         from the test transactions, as well as information on
                                         print quality and timeliness of mailings.

                                      3. Compare the test transaction data obtained in
                                         recommendations 1 and 2 to the Business
                                         Development Measurement Database to determine
                                         whether the data and resulting revenue from each
                                         test transaction were accurately reported in the
                                         Business Development Measurement Database.

6
  We learned from the Product Management group that even using permits, residual postage such as
stamps would not be captured. The Product Management group agreed that dedicated permits could
improve postage tracking.

                                                  6
Hybrid Services                                                      MS-AR-06-001




                     4. Determine the feasibility of each of the hybrid
                        services partners establishing a mailing permit strictly
                        for hybrid services mailings.

 Management’s     Postal Service management agreed with all four of our
 Comments         recommendations; however they did not concur with our
                  finding that the Product Management group does not have
                  adequate controls to validate the production or postage
                  revenue submitted by hybrid services partners. The
                  Product Management group stated the revenue is being
                  adequately accounted for through the use of the BDMD.

                  For recommendation 1, management stated the Product
                  Management group will identify and coordinate a proposal
                  to generate test transactions. By March 2007, Marketing
                  executive management will evaluate the feasibility of the
                  proposed options and develop a course of action. For
                  recommendation 2, management stated by
                  September 2006, the Product Management group will
                  identify the appropriate functional area to determine the
                  quantity of test transactions required to achieve a
                  statistically valid confidence level. If recommendations 1
                  and 2 produce usable data, the Product Management group
                  will implement recommendation 3 as quickly as resources
                  permit. For recommendation 4, management stated by
                  September 2006, the Product Management group will
                  explore the feasibility and efficacy of each of the hybrid
                  services establishing permits strictly for hybrid services
                  mailings.

 Evaluation of    Management’s comments are responsive to
 Management’s     recommendations 1, 2, 3, and 4. Management’s planned
 Comments         actions should correct the issues identified in our report.

                  Regarding management’s disagreement with the finding, we
                  noted on page 5 of our report that problems with the BDMD
                  software have been corrected, and payments from the
                  hybrid services partners can now be compared to the
                  BDMD. All that remains is to reduce the risk that hybrid
                  services partners might not report all revenue to which the
                  Postal Service is entitled. Implementing our
                  recommendations should reduce this risk.




                               7
Hybrid Services                                     MS-AR-06-001



                  APPENDIX. MANAGEMENT’S COMMENTS




                                 8
Hybrid Services       MS-AR-06-001




                  9
Hybrid Services        MS-AR-06-001




                  10
